 Washington, Pa., Man Charged With Theft Of
  Government Property, Using False Social
              Security Number


FOR IMMEDIATE RELEASE                             November 29 , 2011

PITTSBURGH, Pa. - A resident of Washington, Pa., has been indicted
by a federal grand jury in Pittsburgh on charges of theft of government
property and using a false Social Security number, United States
Attorney David J. Hickton announced today.

The two-count indictment named Bruce K. Gaito, 54, as the sole
defendant.

According to the indictment, Gaito fraudulently obtained a Social
Security number in the name of "David Gaito" and used the number to
obtain Supplemental Security Income Benefits from the Social
Security Administration.

The law provides for a maximum total sentence of 15 years in prison, a
fine of $500,000, or both. Under the Federal Sentencing Guidelines,
the actual sentence imposed would be based upon the seriousness of
the offenses and the prior criminal history, if any, of the defendant.
Assistant United States Attorney Robert S. Cessar is prosecuting this
case on behalf of the government.

The Social Security Administration, Office of Inspector General
conducted the investigation leading to the indictment in this case.

An indictment is an accusation. A defendant is presumed innocent
unless and until proven guilty.
